                 Real Property Leasing

                      EXECUTIVE SUMMARY
We reviewed the Commission’s real property leasing procedures to determine whether
they were efficient, met Commission needs effectively, and complied with applicable
guidance. Generally, we found that the procedures were efficient and effective, and
complied with the guidance.

The Office of Administrative and Personnel Management (OAPM), which administers
real property leasing, has supplemented its expertise by using the services of real estate
brokers and the Office of General Counsel (OGC). OAPM has established procedures
for leasing space in headquarters and the field offices.

We are making several recommendations to enhance leasing, including updating
Commission guidance; documenting OGC review of leasing documentation; enhancing
analysis of lease billings; and providing additional training to leasing staff.

                               BACKGROUND
Under the Securities Act Amendments of 1990 (Public Law 101-550), section 4(b) (3) of
the ’34 Act, the Commission has independent leasing authority to lease space directly,
without using the services of the General Services Administration (GSA). Also, it is not
subject to GSA’s space management regulations or directives. The Commission has
issued guidance on leasing and space assignment in its regulation SECR 5-8, the Space
Management Program (dated August 23, 1996).

The Associate Executive Director in OAPM has overall responsibility for the leasing
program, and signs all agency leases. The OAPM Operations Officer, assisted by a
leasing specialist, manages day-to-day leasing activities. In addition, attorneys in the
Office of General Counsel review all lease agreements for legal sufficiency.

Additional leasing expertise is provided by two real estate brokers hired by OAPM, one
for headquarters and one for the field offices. They provide information about space
availability and prices in a geographic area; coordinate leasing activities; prepare market
analysis and appraisals; and assist the Commission in analyzing leasing offers in response
to a solicitation.
                                                                                                                                                             Page   2


OAPM leases approximately 450,000 rentable square feet for headquarters, 200,000
square feet for the Operations Center and Annex, 195,000 square feet in the regional
offices, and 110,000 square feet in the district offices. The headquarters and several of
the field office leases will expire soon (e.g., headquarters in 2003, Atlanta and Salt Lake
in 2001, Chicago, Philadelphia, and Miami in 2002). For these offices, OAPM will
renegotiate lease agreements for existing space or issue solicitations for new space.

                                          SCOPE AND OBJECTIVES
Our objective was to determine whether real property leasing procedures complied with
applicable guidance and were efficient and effective. During the audit, we reviewed lease
documentation, interviewed OAPM, OGC, and regional staff, and surveyed
administrative contacts in the field offices. We also identified internal controls related to
leasing (see the Appendix). We did not review any procurement sensitive documents.

The audit was performed between January and March 2001, in accordance with generally
accepted government auditing standards.

                                                       AUDIT RESULTS
We found that procedures for the leasing of real property generally complied with
applicable guidance and were efficient and effective. Our recommendations for
enhancing management of the leasing program are presented below.

LEASING GUIDANCE
The Commission regulation governing leasing (SECR 5-8, The Space Management
Program, dated August 23, 1996) needs to be updated to reflect current leasing
procedures. The role of the Associate Executive Director of OAPM as head of the
leasing program is not reflected in the guidance. Also, the Memorandum of
Understanding (MOU) between OAPM and OGC on leasing matters is not cited in the
regulation.

              Recommendation A
              OAPM should update the regulation governing leasing (SECR 5-8) as discussed
              above.

OGC CONTRACT REVIEWS
The MOU between OAPM and OGC provides that OGC will review all real property
leases or contracts above the small purchase threshold. However, the MOU does not


________________________________________________________________________________________________________________________________________________________________

Real Property Leasing (Audit 330)                                                                                                             May 31, 2001
                                                                                                                                                             Page   3


require OGC to document its review. Documentation would help ensure that the review
is conducted, and provide evidence of its scope and results.

              Recommendation B
              OGC should document its review of real property leases by including a
              memorandum in the leasing file.

BILLING REVIEWS
The building owner sends annual bills for base rent, taxes, and operating expenses (e.g.,
cleaning services, supplies, materials, maintenance, trash removal, landscaping, water,
sewer, heating, and electricity) to the Comptroller’s Office for payment. That office
forwards them to OAPM, which reviews the bills for accuracy in accordance with the
terms of the lease, and as appropriate authorizes payment(s).
Our review of lease documentation for the Philadelphia, New York, and Boston field
offices indicated that billing reviews need to be enhanced. For example, in one case an
owner requested $225,871.54 in unpaid fees, as a result of billing errors.
              Recommendation C
              In consultation with the Comptroller’s Office, OAPM should review existing
              procedures for processing annual bills and supporting documentation from
              building owners. If appropriate, OAPM staff should be provided additional
              guidance and training, so billing errors can be detected and corrected in a timely
              manner.

TRAINING REQUIREMENTS
GSA leasing specialists complete, at a minimum, five basic training courses in real
property leasing, government contract negotiating, cost and price analysis of leasing
proposals, real estate law, and real estate appraisal principles. OAPM has not established
training requirements for its leasing staff. One member of the staff has not had any
leasing coursework while at the Commission, according to the employee.

              Recommendation D
              To ensure that leasing staff have necessary expertise, OAPM should establish
              training requirements for them, using GSA standards as a guide.

BUILDING MAINTENANCE SERVICES
In response to our survey, several administrative contacts in the field offices indicated
that building maintenance services (such as carpet cleaning) need improvement. They
were unsure of follow-up procedures with the building manager when services were not
provided as stated in the lease. The field office staff would apparently benefit from
additional guidance and training.

________________________________________________________________________________________________________________________________________________________________

Real Property Leasing (Audit 330)                                                                                                             May 31, 2001
                                                                                                                                                             Page   4


              Recommendation E
              OAPM should provide the field offices with additional guidance and training on
              follow-up procedures for building maintenance services.

APPLICABILITY OF PUBLIC BUILDINGS ACT
Section 606 of the Public Buildings Act of 1959 (40 U.S.C. 606) requires Congressional
committee approval of leases with annual rental (excluding services and utilities)
exceeding $1,500,000. Although the annual cost of the lease for the Northeast Regional
Office (signed in 1992) exceeded this threshold, OAPM did not obtain Congressional
committee approval. The statute providing the Commission with independent leasing
authority (15 U.S.C. 78d) is unclear as to whether the Public Buildings Act applies to the
Commission.

              Recommendation F
              OAPM should request OGC’s opinion as to whether the Public Buildings Act of
              1959 applies to the Commission. If it does, OAPM should bring the Commission
              into compliance with the Act.
              In its informal response to the draft report, OPAM indicated that it has requested
              an opinion from OGC on this issue.




________________________________________________________________________________________________________________________________________________________________

Real Property Leasing (Audit 330)                                                                                                             May 31, 2001
